OIG Investigative Reports, Press Release: Jenkins Township, PA December 04, 2009 - Federal Officials Announce the Filing of a Criminal Information Charging a Former Wilkes-Barre Area Career and Technical School Employee with Mail Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Middle District of Pennsylvania
William J. Nealon Federal Building
235 N. Washington Avenue
P.O. Box 309, Suite 311
Scranton, PA 18503-0309
Phone: (570) 348-2800
Fax : (570) 348-2037 or (570) 348-2830
Ronald Reagan Federal Building
228 Walnut Street
P.O. Box 11754, Suite 220
Harrisburg, PA 17108-1754
Phone: (717) 221-4482
Fax:  (717) 221-2246 or  (717) 221-4493
Herman T. Schneebeli Federal Building
240 West Third Street
Suite 316
Williamsport, PA 17701-6465
Phone: (570) 326-1935
Fax: (570) 326-7916
PRESS RELEASE
FOR IMMEDIATE RELEASE:
December 04, 2009
Dennis C. Pfannenschmidt
U.S. Attorney
(717) 221-4482
FEDERAL OFFICIALS ANNOUNCE THE FILING OF A CRIMINAL INFORMATION CHARGING A FORMER WILKES-BARRE AREA CAREER AND TECHNICAL SCHOOL EMPLOYEE WITH MAIL FRAUD
Dennis C. Pfannenschmidt, United States Attorney for the Middle District of Pennsylvania; Janice Fedarcyk, Special Agent in Charge, Federal Bureau of Investigation; Don Fort, Special Agent in Charge, Internal Revenue Service-Criminal Investigation Division; and Mary Mitchelson, Acting Inspector General of the U.S. Department of Education, Office of Inspector General jointly announced today that an Information was filed today charging Jeffrey Piazza, a former employee of the Wilkes-Barre Area Career and Technical School, with mail fraud. The charge carries a maximum possible penalty of 30 years in prison and a fine of $1,000,000.
Mr. Piazza, age 33, of Jenkins Township, is alleged to have participated in a scheme to defraud the Wilkes-Barre Area Career and Technical School of thousands of dollars in hidden kickbacks allegedly paid to Mr. Piazza by a vendor while Mr. Piazza was employed at the school.
According to U.S. Attorney Pfannenschmidt, Mr. Piazza is the twenty-first person charged with criminal conduct since late January of this year in an on-going investigation targeting public corruption in northeastern Pennsylvania..
This case is part of an on-going investigation by the Federal Bureau of Investigation, the Internal Revenue Service and the United States Department of Education and is being prosecuted by a team of federal prosecutors led by Senior Litigation Counsel Gordon Zubrod and includes Assistant U.S. Attorneys William Houser, Michael Consiglio, Amy Phillips and Criminal Division Chief Christian Fisanick. Pfannenschmidt praised this team of investigators and prosecutors for their tireless efforts on behalf of the people of northeastern Pennsylvania..
Anyone with information is asked to call the public corruption task force toll free at 1-866-996-4320.
****
An Indictment or Information is not evidence of guilt but simply a description of the charge made
by the Grand Jury and/or United States Attorney against a defendant. A charged Defendant is
presumed innocent until a jury returns a unanimous finding that the United States has proven the
defendant’s guilt beyond a reasonable doubt or until the defendant has pled guilty to the
charges.
Top
Printable view
Last Modified: 12/15/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov